U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        International Trade Administration

        Chicago USEAC Network is Generally
                 Operating Well But Needs to
        Improve Its Export Success Reporting


     Final Inspection Report No. IPE-16136/February 2004




                             PUBLIC
                             RELEASE



             Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                             Final Report IPE-16136

Office of Inspector General                                                                      February 2004


                                       EXECUTIVE SUMMARY 


The Department of Commerce’s International Trade Administration (ITA) plays a major role in
leading the federal government’s efforts to increase U.S. exports. ITA’s U.S. Commercial
Service,1 as the Department’s key export promotion agency, works closely with the U.S. business
community and federal, state, and local trade partners to promote export awareness and U.S.
sales abroad.

Currently, the Commercial Service, through its Office of Domestic Operations, operates 105
U.S. Export Assistance Centers (USEACs), grouped geographically into 12 networks. The key
objective of the USEACs is to enhance and expand federal export promotion and trade finance
services through greater cooperation and coordination between federal and non-federal trade-
related partners.

The Office of Inspector General conducted the on-site portion of its inspection of the operations
of Commercial Service’s Chicago USEAC Network from August 4 to 8, 2003, focusing on
program operations as well as the financial and administrative practices of the Chicago USEAC
Network. Commercial Service opened the Chicago Export Assistance Center in 1994, co
locating with the Export-Import Bank and Small Business Administration to better provide U.S.
firms with information on all export promotion and export finance activities of the federal
government. It was one of the four offices established under the “one-stop shop” pilot.2 Today,
the Chicago USEAC Network covers the states of Illinois, Indiana, Minnesota, North Dakota,
and Wisconsin.

We found that the export assistance centers within the Chicago USEAC Network are generally
doing a good job of providing export assistance to U.S. companies. More specifically, we were
very pleased to note the following.

Chicago USEAC Network Operates in a Collaborative Fashion. We found the atmosphere of
the Chicago USEAC Network to be team-oriented and positive. The co-location of export
promotion and trade finance partners in the Chicago USEAC fosters close ties and strengthens
information exchanges and joint client outreach among the trade partners. We also found that
the Chicago USEAC Network has a strong reputation among its various federal, state, and local
partners in the Chicago area. The Chicago USEAC Network is known as a reliable trade partner,
which is always available to help sponsor, promote, and organize trade events and participate in
export counseling (see page 5).

Chicago USEAC Network Receives High Marks for Client Counseling. Clients we spoke
with were quite pleased with the export assistance provided by the staff of the Chicago network.
Based on client feedback, we found that the staff is well respected within the business

        1
          U.S. Commercial Service is also known as the U.S. & Foreign Commercial Service (US&FCS).
        2
          The Export Enhancement Act of 1992 directed the Commerce Department to take the lead in setting up
“one-stop shops” to assist U.S. exporters. The one-stop shops, known as USEACs, are intended to integrate the
representatives and assistance of the three principal federal agencies providing export promotion services:
Commercial Service, Export-Import Bank, and Small Business Administration. The first four USEACs were
established in January 1994, as pilot sites in Baltimore, Chicago, Long Beach, and Miami.


                                                       i
U.S. Department of Commerce                                                  Final Report IPE-16136
Office of Inspector General                                                           February 2004

community and has a reputation for being responsive, proactive, and innovative. We also found
that the timeliness and quality of the services provided by the export assistance centers met the
expectations of most clients (see page 8).

However, we also found a few issues and concerns that warrant the Commercial Service’s
attention:

Export Successes Need Better Management Review. We found that the Chicago USEAC
Network was not in full compliance with the Commercial Service’s guidelines on performance
measures and reporting procedures. We reviewed the export successes approved over the period
October 1, 2002 to July 9, 2003. We found that several of the export successes were inaccurate
and of poor quality—with problems ranging from overstated values to narratives that did not
clearly demonstrate the link between the assistance rendered and the reported outcome. We
believe the Chicago network can better apply the export success guidelines and that more
management oversight of export successes, both at the field and headquarters levels, is needed to
ensure accurate export success reporting (see page 9).

Financial and Administrative Operations Are Generally Good, with One Exception. We
found the Commercial Service did not invoice or collect $16,088 in lease payments from a trade
partner co-located in Chicago, as well as in Houston and Newport Beach. Despite a requirement
in the Memorandum of Understanding with the trade partner, Commercial Service had not
sought—and the trade partner had not paid—these funds for the last 3 fiscal years. However,
after we brought this issue to the attention of the Director of the National Field Support Team,
his staff submitted an invoice to the contractor, and on November 19, 2003, the trade partner
paid Commercial Service $16,088 for its share of the lease costs. Based on what we found, we
question whether Commercial Service’s procedures are adequate to ensure that it consistently
tracks, bills, and collects payments due from non-federal trade partners (see page 15).

On page 19, we offer recommendations to address our concerns.



The Commercial Service concurred with our recommendations. Specifically, the Acting
Assistant Secretary and Director General for the U.S. and Foreign Commercial Service’s
response to our draft report stated that “CS management is very pleased with the report overall
and thankful for the opportunity to make changes where needed.” In particular, CS management
was pleased that the Chicago network received high marks from trade partners for its cooperative
and collaborative attitude as well as from clients who described the network as proactive and
responsive. Commercial Service’s response to our recommendations outlines actions completed
and steps to be taken to (1) strengthen management’s oversight of export successes, (2) ensure
collection of lease payments from co-located trade partners, and (3) assess the adequacy of
security at an export assistance center. We discuss those specific actions and other comments on
our recommendations following each appropriate section in this report. The Commercial
Service’s entire response to our draft report begins on page 21.




                                                ii
U.S. Department of Commerce                                                                  Final Report IPE-16136

Office of Inspector General                                                                           February 2004


                                                BACKGROUND 


The U.S. Commercial Service (CS) was established to assist U.S. companies in selling their
products to international markets by focusing on the “promotion of exports of goods and services
from the United States, particularly by small businesses and medium-sized businesses, and on
the protection of United States business interests abroad.” Founded in 1980, as an agency of the
International Trade Administration (ITA), Commercial Service positions itself as a provider of
global business solutions and flexible and comprehensive products and services. Commercial
Service, through its Office of Domestic Operations (ODO) and Eastern and Western regional
offices, administers 105 U.S. Export Assistance Centers (USEACs), located across the United
States.

The Export Enhancement Act of 1992 called for the creation of export assistance centers with the
objective to bring together federal trade-related agencies to form one-stop shops where U.S.
firms could receive information about all federal export promotion and finance activities. In
creating USEACs, Commercial Service designed a “hub and spoke” system: a USEAC, with co
located federal trade partners, serves as the “hub” office supporting the activities of several
“spoke” or satellite offices (also called USEACs) within a designated geographic area.

In 1994, Commercial Service opened a USEAC in Chicago. It was one of the four initial one-
stop shops, bringing together representatives of Commercial Service, Export-Import Bank (Ex-
Im), and Small Business Administration (SBA). Since that time, the Chicago USEAC has
expanded to include, as a co-located trade partner, the Global Trade and Technology Network
(GTN), which is funded by the U.S. Agency for International Development.3 As the primary
partners of the Chicago USEAC, these trade agencies share in client counseling and referrals,
outreach, event planning and program participation and promotion.




                                    Reception area of the Chicago USEAC.




         3
           GTN is a USAID-funded program implemented by International Executive Service Corp. GTN’s
objective is to promote economic growth in developing countries through trade, investment, and technology transfer.
USAID was a participating agency in the establishment of the pilot assistance centers, but was not initially located in
Chicago.


                                                          1
U.S. Department of Commerce                                                   Final Report IPE-16136
Office of Inspector General                                                            February 2004

Today the Chicago USEAC is a hub office to six spokes located in Libertyville, Peoria, and
Rockford, Illinois; Indianapolis, Indiana; Milwaukee, Wisconsin; and Minneapolis, Minnesota.
Together they cover these four states and North Dakota (see Figure 1).

               Figure 1: Geographical Territory – Chicago USEAC Network




At the time of our review, the Chicago USEAC Network had a staff of 25 CS employees: 1
network (or hub) director, 5 spoke directors, 15 trade specialists, 2 trade reference assistants, 1
personal service contractor, and 1 student intern. In addition, within the network, there were 8
employees of partner agencies: 5 Ex-Im, 2 SBA, and 1 GTN. The fiscal year 2003 CS operating
budget for all export assistance centers in the Chicago USEAC Network totaled $2,454,344.
Also for fiscal year 2003, the Chicago USEAC network collected $89,745 in fees from its clients
for CS products and services.

The Chicago USEAC Network assists U.S. companies across a wide range of industries. The top
industries are industrial machinery, computer equipment, electronic and electric equipment,
chemicals, and food processing and packaging equipment. Other key industries include
biotechnology, environmental technology and equipment, consumer goods, and tourism. During
fiscal year 2003, the Chicago USEAC Network counseled 2,748 clients and added 892 new
clients to its portfolio. New clients are often identified at tradeshows, meetings, and seminars as
well as through referrals from trade partners and trade associations. Through national initiatives,
such as the Global Diversity Initiative and Rural Export Initiative, Commercial Service has
increased its outreach to minority and woman-owned businesses, as well as rural companies,
which were traditionally under-served business sectors.

Services are provided by trade specialists who are assigned a client portfolio determined by
either industry category or geographic location. Trade specialists primarily provide value-added
counseling, which includes but is not limited to helping clients determine their export readiness,
identify potential export markets, and develop an overall, long-term international business
strategy and marketing plan. Specialists provide one-on-one counseling and customized business
solutions to small and medium-sized U.S. firms just beginning to venture into markets abroad or
seeking to expand their international activities. In addition, trade specialists speak at seminars,
participate in initiatives with their trade partners, and promote and sell CS products and services.


                                                 2

U.S. Department of Commerce                                                               Final Report IPE-16136
Office of Inspector General                                                                        February 2004

They often work with CS’s overseas posts, which provide market information and in-country
advice and assistance to U.S. companies.

To enhance the delivery of client-specific solutions, Commercial Service recently developed a
pilot program to train selected trade specialists to serve as the point of contact for information on
specific trade topics, such as export controls. In addition to the Specialist Program pilot, through
the Teams initiative, trade specialists participate as members or leaders of teams based on
industry (for example, aerospace) and/or geographic region (for example, western hemisphere);
such teams are composed of staff from CS domestic and overseas offices as well as from other
units of ITA and some trade partner organizations.4 These teams provide a structure through
which all staff can jointly prioritize trade promotion activities and better service the needs of
U.S. firms.

In addition to engaging other ITA units, the Chicago USEAC Network also works with a diverse
group of trade-related partners on the state and local level to deliver export assistance services
and prevent unnecessary duplication of efforts. The export assistance centers maintain
relationships with their District Export Council,5 state trade agency, local chamber of commerce,
and other trade-related organizations to sponsor, promote, and host trade events and seminars, in
addition to providing export assistance to U.S. companies.




        4
          The ITA units are Market Access & Compliance and Trade Development.
        5
          District Export Councils are organizations of local leaders appointed by the Secretary of Commerce to
impart their experiences with international business to small and medium-sized companies.


                                                        3
U.S. Department of Commerce                                                   Final Report IPE-16136

Office of Inspector General                                                            February 2004


                      OBJECTIVES, SCOPE, AND METHODOLOGY 


The purpose or our evaluation was to assess the effectiveness of the management, program, and
financial and administrative operations of the Chicago USEAC Network, including its
development and achievement of goals and objectives, the efficiency of its operations, and its
compliance with applicable regulations and other managerial guidance. Specifically, we sought
to determine whether the Chicago USEAC Network

   • 	 plans, organizes, and controls its work and resources effectively and efficiently;
   • 	 operates effectively, in that it meets the needs of U.S. exporters and helps increase
       exports and market access; and
   • 	 has appropriate internal controls and financial management practices.

To accomplish our goals, we reviewed the Chicago USEAC Network’s strategic work plans,
which offer quantifiable performance measures for increasing U.S. exports, and its coordination
and collaboration with trade partners. We interviewed appropriate CS, Ex-Im, and SBA officials
as well as representatives of non-profit organizations and state government agencies involved in
trade promotion. We surveyed a sample of the Chicago USEAC Network’s clients, which we
randomly selected, regarding their satisfaction with the export assistance they received. We also
surveyed the Network’s staff. We evaluated the coordination between the network and other
trade-related organizations in achieving the overall goals of ITA and the Department of
Commerce. To help formulate our findings, we examined pertinent files and records relating to
the Chicago USEAC Network’s financial, administrative, and other operations.

We conducted our fieldwork from June 19 to October 7, 2003, visiting the Chicago USEAC
from August 4 to 7, 2003, and the Minneapolis USEAC on August 8, 2003. During the review
and at its conclusion, we discussed our findings with the Chicago network director, the national
director for the Western Region, and the Deputy Assistant Secretary for Domestic Operations.




                                                4

U.S. Department of Commerce                                                                        Final Report IPE-16136

Office of Inspector General                                                                                 February 2004


                                     OBSERVATIONS AND CONCLUSIONS

I.         Chicago USEAC Network Operates in a Collaborative Fashion

We conducted a 360-degree evaluation of the Chicago USEAC Network to determine how well
the staff is working together and with their overseas counterparts, in addition to how well they
interact with their trade-related partners. We found the work atmosphere within the Chicago
USEAC Network to be positive overall. The staff informed us that there is a team environment
and open lines of communication among the trade specialists and directors.6 We also found that
the network is well-respected by its various federal, state, and local partners in the Chicago area;
they consider the Chicago network to be a reliable trade partner, always available to help
sponsor, promote, and organize trade events or participate in export counseling sessions.

A.         Chicago USEAC Network has a team environment

We found that interactions among the staff of the Chicago USEAC Network are collaborative
and amicable. Staff described the work environment as harmonious and team-spirited,
highlighting dedicated co-workers and quality
leadership. We found that the USEAC network director
is cultivating a good working environment with an open     “Knowledgeable, friendly, and
atmosphere.                                               eager to interact and share ideas
                                                                                 with one another.”
The network director regularly schedules meetings and
conference calls with staff and holds quarterly “all                                Trade Specialist’s description
hands” network meetings to discuss strategic planning                                    of her colleagues.
issues and objectives, share best practices, and invite
trade partners to speak about their agency and trade
initiatives. Staff also described communication between
the hub and spoke offices as good.

Because of its strategic location in the Midwest, the Chicago USEAC often hosts Commercial
Service staff from CS’s overseas posts—for example, in February 2003, the Chicago office
hosted a professional development training session for newly assigned foreign service officers to
the domestic field. Hosting foreign service nationals and foreign service officers on visits to the
Chicago area appears to have helped the Chicago USEAC Network establish good working
relationships with Commercial Service’s overseas posts. In addition, a number of trade
specialists have completed temporary assignments at overseas posts. Several trade specialists
and directors noted that their relationships with the overseas posts have much improved over the
past few years, particularly with regard to information sharing. CS management acknowledged
that integration initiatives, such as joint training and temporary duty assignments, have helped
both the domestic and overseas staff gain a better appreciation and understanding of each other’s
role and functions.



           6
               Use of the term “directors” includes the director of the hub office as well as the directors of the spoke
offices.


                                                                5
U.S. Department of Commerce                                                  Final Report IPE-16136
Office of Inspector General                                                           February 2004

B. 	   Chicago USEAC Network: a true “one-stop shop”

U.S. Export Assistance Centers were created with the objective to bring together federal trade-
related agencies to form one-stop shops to better promote the U.S. government’s trade initiatives
and assist the export community. Within the Chicago USEAC, Commercial Service is co
located with Ex-Im, SBA, and GTN, which has fostered close ties and strengthened information
exchanges among them, thereby facilitating a smooth delivery of export assistance to U.S.
companies.

We learned that the trade specialists and directors within the Chicago USEAC Network
frequently conduct joint client counseling sessions and co-sponsor programs and seminars with
their federal partners. For example, in June 2003, Ex-Im, SBA, and GTN co-sponsored with the
Chicago USEAC a joint export seminar targeting minority-owned businesses. Ex-Im officials
told us that they frequently receive client referrals from their CS counterparts and conduct joint
client counseling sessions, and both Ex-Im and SBA stated that the trade specialists and directors
share quality client leads and know when to bring in the trade finance experts to provide clients
with trade assistance.

We found that the export counseling offered by Commercial Service is enhanced by greater and
more convenient access to trade finance support as well as cross-referral of clients among the
Chicago USEAC partners. Both SBA and Ex-Im, through their respective working capital and
export support programs, offer the financial assistance needed by many of the ready-to-export
companies that the trade specialists counsel.

C. 	   Network’s responsive collaboration with non-federal trade partners enhances its
       mission

While in Chicago, we had the opportunity to meet with a number of state and local trade partners
and found that they, most notably the Illinois District Export Council, are quite pleased with the
Chicago network=s commitment to the trade community as well as its collaborative efforts. A
number of these trade partners work with not only the Chicago USEAC but also the other export
assistance centers located within the network. We learned that the network staff is visible in the
community, innovative, and always available to assist their trade partners. We highlight three of
those trade partner relationships below.

Illinois District Export Council

The mission of the Illinois District Export Council (IDEC) is to support and assist the Chicago
USEAC and its satellite offices in Libertyville, Peoria, and Rockford. District Export Councils
(DECs)—approximately 56 throughout the United States—are composed of local leaders
appointed by the Secretary of Commerce. They supply specialized expertise, based on their own
work experiences, about international business to small and medium-sized companies,
complementing the counseling and assistance provided by Commercial Service’s trade
specialists.




                                                6
U.S. Department of Commerce                                                              Final Report IPE-16136
Office of Inspector General                                                                       February 2004

IDEC counsels local businesses and sponsors programs in an effort to create greater awareness
about exporting. The April 2002 Asia-Pacific Business Conference, which attracted over 200
companies, was jointly sponsored with the Chicago USEAC; companies participated in one-on
one counseling sessions with senior commercial officers from several CS Asia-Pacific posts.
The IDEC chairman informed us that he has participated in client counseling sessions with trade
specialists and was impressed by their knowledge and counseling ability. The IDEC also
publishes, on behalf of the Chicago USEAC, a business calendar, which announces upcoming
trade events, seminars, and courses.7

Illinois Trade Office

The Illinois Trade Office (ITO) is a state agency that promotes job retention and creation in
Illinois through exporting, foreign direct investment, and international tourism. ITO maintains a
three-tier network of International Trade/NAFTA Opportunity Centers located throughout the
state, a headquarters office in Chicago to provide statewide assistance, and eight overseas Illinois
trade offices, which provide in-country assistance to companies.

We found that the Chicago USEAC and its Illinois satellite offices work frequently with both
ITO headquarters in Chicago and the International Trade/NAFTA Opportunity Centers to
provide trade information and counseling to Illinois companies through joint outreach and
seminars. For example, we learned that ITO has been instrumental in helping clients benefit
from Commercial Service’s products and services under its “Target” program, which leverages
the resources available through ITO and trade partners to provide companies with such services
as matchmaking appointments and market research. Under the Target program, ITO often
purchases CS products and services for Illinois companies through the Chicago USEAC.

MIATCO

The Mid-America International Agri-Trade Council (MIATCO) is a private, nonprofit
association that offers services to help U.S. companies, in a 12-state area, promote their
Midwestern food and agricultural products in foreign markets. It is a cooperative effort between
the member state’s agricultural promotion agencies and the U.S. Department of Agriculture’s
Foreign Agricultural Service.

We found that while the Chicago USEAC Network and MIATCO do not usually hold joint
counseling sessions, they do make client referrals to one another, recruit companies for trade
events, and share information on export successes. For example, we learned that the
Minneapolis USEAC, working with the North Dakota Department of Agriculture, recently
recruited several food companies for a MIATCO-sponsored trade mission to Korea and Japan.
We also learned that MIATCO is a member of the Commercial Service’s Agribusiness Team and
has participated in CS training programs.




        7
         The IDEC publishes the calendar in collaboration with the International Trade Association of Greater
Chicago and the Illinois Trade Office of the Illinois Department of Commerce and Economic Opportunity.


                                                        7

U.S. Department of Commerce                                                          Final Report IPE-16136
Office of Inspector General                                                                   February 2004

II.     Chicago USEAC Network Receives High Marks for Client Counseling

Overall the clients we contacted were quite satisfied with the counseling services provided by the
export assistance centers located within the Chicago USEAC Network. Based on client
feedback, we concluded that the staff of the Network is well respected within the business
community. The staff has a reputation for being responsive, proactive, and innovative. We also
found that the timeliness and quality of the services provided by the export assistance centers
met the expectations of most clients.

In total, out of a sample universe of 33 clients, we obtained
feedback from 20 clients, via either telephone or E-mail
                                                                     “I give them all an A+.”
survey. The clients were generally impressed with the
availability and responsiveness of the trade specialists and     Client of the Chicago USEAC
were pleased with their knowledge of overseas markets,
access to contacts, and understanding of how to conduct
international sales. Several clients remarked that they did
not expect such responsive customer service from a
government agency. One client was particularly pleased by the assistance he received from a
trade specialist who made several international calls to ensure that the company’s shipment
arrived on time. Another client was impressed by a trade specialist’s dedication, as evidenced by
the fact that he drove hours to the company’s location to provide one-on-one counseling. The
client added that not only did the trade specialist bring good ideas, which made the export
transaction a success, but he also brought an Ex-Im official who provided counseling on export
financing programs.

A number of clients stated that the trade specialists keep them informed of market conditions and
issues affecting exports and upcoming events primarily through newsletters and E-mails. We
learned that the Chicago USEAC sends “blast E-mails” to its clients to inform them of events
about which they may be interested, for example, the Minority Business Development Agency’s
September 2003 National Minority Enterprise Development Week annual celebration, which
recognizes the contributions made by minority businesses to the country’s economy.8 Many
clients remarked that they are appreciative of the export assistance centers and call on them when
they are in need of export advice or market counseling.




        8
           The Minority Business Development Agency is a Department of Commerce agency, whose mission is to
foster the establishment and growth of minority-owned business in the United States.


                                                     8
U.S. Department of Commerce                                                                Final Report IPE-16136
Office of Inspector General                                                                         February 2004

III.     Export Successes Need Better Management Review

Export successes are Commercial Service’s key performance measure. Commercial Service’s
Office of Domestic Operations (ODO) uses the data to assess the performance of USEACs and
determine whether they are meeting organizational goals and objectives. The Office of
Management and Budget (OMB) and the Congress also use the data to make decisions on
appropriations for Commercial Service.

The Commercial Service Operations Manual describes export successes as:

         An actual verifiable export sale—shipment of goods or delivery of services.
         The legally binding signing of an agreement, including agent/distributor, representation,
         joint venture, strategic alliance, licensing, and franchising or the signing of a contract by
         the client, with sales expected in the future.9
         Resolution of a trade complaint or dispute on behalf of the client—avoiding harm or loss.
         Removal of a market access barrier, including standards, regulations, testing and 

         certification—opening a market for U.S. firms. 


Both trade specialists and spoke directors have a yearly export success performance goal, which
is outlined in their annual individual work plans. For example, for fiscal year 2003, a trade
specialist at grade level 13 was expected to realize 35 export successes. Information on each
export success is recorded in a client management system by a trade specialist but must be
reviewed and approved by his/her spoke director, who then forwards the success record to the
network director for final review and approval. A spoke director forwards his/her export success
records directly to the network director. We were told that staff to the ODO national western and
eastern regional directors then randomly spot-check the approved export successes, as called for
in ODO’s guidelines. If problems are identified, then staff is to bring them to the attention of the
regional directors.

In reporting their export successes in narrative form, trade specialists and spoke directors are
expected to briefly describe the client company, what it does, and where it does business; then
explain the chain of events leading to the success—that is, what was done to make the success
happen including any actions by other CS or ITA staff as well as federal, state, or local trade
partners who assisted with the success.

Commercial Service reports both the number of export successes generated per fiscal year and
the total dollar value of those exports. The following chart illustrates the Chicago USEAC
Network’s numerical export success goals for fiscal years 2001, 2002, and 2003, and the
Network’s reported export successes (see Chart 1).




         9
         The signing of a contract and an export sale immediately thereafter (within three months), related to the
same contract, must be reported as a single export success.


                                                         9
U.S. Department of Commerce                                                                          Final Report IPE-16136

Office of Inspector General                                                                                   February 2004


                    Chart 1: Export Successes – Chicago USEAC Network

                                                              Export Successes
                                                                                         417   430
                                                       406                392




                         # of export successes
                                                                    357
                                                 280




                                                   FY01               FY02                 FY0 3

                                                             Goal               Actual

                  Source: Commercial Service.

Our review revealed that the Chicago USEAC Network is not in full compliance with the
Commercial Service’s guidelines on the reporting and review of export successes. We reviewed
the 273 export successes approved for the Chicago USEAC Network over the period October 1,
2002 to July 9, 2003.10 We followed up on 29, or approximately 10.6 percent, of them and
found that several were not in compliance with the Commercial Service’s guidelines. Problems
ranged from overstated values to narratives that did not clearly demonstrate the link between the
assistance rendered and the outcome reported to poorly written success stories with
typographical errors and data inconsistencies. In addition, we noted that the chain of events
leading up to some export successes were not always clearly demonstrated in client records
contained within the Client Management System (CMS).

We believe the Chicago USEAC Network should better apply the export success guidelines and
that more management oversight of export successes, both at the field and headquarters levels, is
needed.

A.     Some export successes are problematic

Reporting inaccurate export successes that do not conform to the Operations Manual guidelines
is a serious concern. In addition to ODO and OMB, aggregate export figures are reported to
Congress though testimony and various reports, including the Department’s annual performance
plan. Commercial Service reports that last year it facilitated over $23 billion in U.S. exports.

Based on our review, it appears that the value of export successes, reported by the Chicago
USEAC Network over the period October 1, 2002 to July 9, 2003, was overstated by $4.33
million, out of $42.1 million in reported export successes for our period of review. We found
that in 7 instances the Chicago network reported anticipated or expected sales as the export
success value rather than actual sales as required in the Operations Manual. The Manual
specifically states: “Only claim on the dollar value of the report the actual amount of

       10
            There was an acting network director in place from October 2002 through December 2002.


                                                                    10
U.S. Department of Commerce                                                   Final Report IPE-16136
Office of Inspector General                                                            February 2004

product/service that has already been sold. Projected or anticipated sales, etc. are not allowed on
the dollar value line of the report as the sales have not yet been consummated.” In total, it
appears that approximately $3.56 million of “estimated” or “expected” sales were reported as the
actual sales amount. We presented questions about each of those export successes in person or
via E-mail to the Chicago network director, who stated that no dollar amount should have been
reported for the export successes.

We also questioned five other reported export successes for reasons other than the reporting of
“estimated” or “expected” sales. The first involved a trade specialist helping a U.S. company
recover equipment from a Chinese company. The trade specialist reported the $10,000 value of
the returned equipment as the export success amount. The second involved a trade specialist
who, with the help of the overseas post, found an Italian supplier for a U.S. company, which
resulted in a net savings of $60,000 for the U.S. company, which the trade specialist reported as
the export success amount.

We do not question that these trade specialists provided assistance to the U.S. companies; we are,
however, concerned that the export success write-ups were approved with the “success amounts”
of $10,000 and $60,000, respectively, even though no actual export sales took place. We
brought these two export successes to the attention of the Chicago network director, who stated
that in these instances, since there were no actual export sales, no monetary success amount
should have been reported.

The third and fourth instances involved a trade specialist who helped two U.S. companies resolve
commission disputes with their respective Egyptian sales representatives and reported as the
export success amount the value of the products shipped to or sold by the sales representatives
prior to the trade specialist providing assistance to the two companies: in one case the value was
$600,000, in the other $27,000.

Again, we do not question that the trade specialist provided assistance to the U.S. companies; we
are concerned that the value of the products was reported, and approved, as the export success
amounts when the Operations Manual states that “there must be a direct link between the
USEAC assistance provided and the reported outcome.” In response to our inquiries concerning
these two export successes, the Chicago network director stated that she thought such reporting
was justified under the guidelines but that the guidelines have since changed. She agreed that a
success amount should not have been reported for the export successes in those instances also.

We subsequently asked the national director for the Western Region whether the Operations
Manual guidelines had been revised since the start of fiscal year 2003; he stated that the same
guidelines had been in effect from October 1, 2002, through July 9, 2003, but added that what
constitutes an export success is subjective, and what should or should not be approved as an
export success is often debated among network directors.

The fifth export success involved a trade specialist over-claiming by $80,000 the value of export
sales that occurred during the prior 2 years—the reporting time frame stipulated in the
Operations Manual. When we questioned the amount of the export success, the trade specialist
stated, “Sales to date, 1997-2003, are in the $100,000 range. The firm estimates that



                                                11
U.S. Department of Commerce                                                  Final Report IPE-16136
Office of Inspector General                                                           February 2004

approximately 20 percent of the sales were made within the last 2 years”; thus the reported
success amount should have been 20 percent of $100,000 (that is, $20,000) rather than the full
amount.

From October 1, 2002 to July 9, 2003, the Chicago USEAC Network reported a total export
value of $42.1 million. Based on our review of those successes, it appears that, at a minimum,
roughly 10 percent of the total export value reported, or $4.33 million, was overstated.

Other problems we found in several narratives included typographical errors, inconsistencies in
terms of the country of success and success amounts reported, insufficient details about the chain
of events leading to the export success, or other examples of noncompliance with content and
reporting guidelines.

It appears that the reporting errors, discrepancies, and quality control problems occurred because
(1) the Chicago USEAC Network staff did not always adhere to the Operations Manual
guidelines for performance reporting, and (2) there was inadequate management oversight. The
Manual states “Managers and staff are accountable for reporting performance statistics
consistent with this guidance. Office Directors provide quality control certifications by
completing approval fields in the CMS database. Regional Directors spot-check Export Success
reports.” We are concerned that neither the Chicago network director nor the national director
for the Western Region identified the reporting errors contained within the export successes we
reviewed.

During fiscal year 2003, the Commercial Service formed a working group to study the
performance measures and export success guidelines. Based on the working group’s findings
and conclusions, the Commercial Service issued new guidelines effective October 1, 2003. In
light of our recent findings, we will review the new guidelines and their implementation to
determine if they will be effective in providing adequate guidance for the reporting and review of
export successes.

Recommendation. The Commercial Service needs to require more diligence in the reporting
and review of export successes. More oversight and careful review of export success write-ups
and their compliance with the Operations Manual guidelines is needed by not only the network
director, but also by ODO.



In its response to our draft report, Commercial Service agreed that management oversight of
export success reporting can be strengthened across the field as well as in headquarters.
Commercial Service outlined the actions completed and steps yet to be taken to ensure that
reports of export successes are uniformly of high quality. In particular, Commercial Service has
(1) developed and posted new guidelines accessible to CS personnel worldwide to clarify and
harmonize performance standards and reporting, (2) dedicated two quarterly directors’ meetings
and weekly conference calls to review and implementation of the new guidelines, (3) conducted
a series of training conference calls with the domestic field to discuss policy guidance and the
mechanics of reporting and editing export successes, (4) instructed network directors to work



                                                12

U.S. Department of Commerce                                                    Final Report IPE-16136
Office of Inspector General                                                             February 2004

together as they review export successes to ensure greater consistency and compliance with CS
policy, and (5) provided editing rights to network directors within the performance measures
database allowing them to correct reporting errors.

Commercial Service also stated that it is creating a training class to help personnel understand
the new guidance, improve the quality of export success narratives, and ensure that trade
specialists are using CMS to record client interaction consistently. In addition, under a proposed
reorganization, ODO plans to designate a senior-level official in headquarters to be responsible
for ensuring that export successes are of high quality and that there is consistency in reporting
nationwide.

The Chicago network office stated that it is now using the current version of the Operations
Manual guidelines and has begun to implement the recommendations. That office also stated
that it is more vigilant in correcting errors in the successes reported and making certain that the
chain of events leading to an export success is clearly documented.

We support the actions taken by Commercial Service and its Chicago network office to improve
the quality and accuracy of export success reporting and documentation. We look forward to
learning more about the Commercial Service’s training class as well as its plans to designate an
ODO official to oversee export success reporting. The actions taken and proposed by the
Commercial Service meet the intent of our recommendation.

B.     Chain of events for an export success is not always clearly documented

We reviewed CMS client records to ascertain the chain of events that led to a number of export
successes. For some, we could not find CMS entries that clearly discussed the value-added
counseling provided or demonstrated a direct link between the USEAC assistance rendered and
the reported outcome. Currently there is no set time period for trade specialists to update their
client session records within CMS. However, we think that ODO may want to consider
requiring trade specialists to regularly update their client counseling records in CMS. This
would help ensure that the support for export successes and other performance data is available
and timely. Complete client records should also facilitate the trade specialists’ follow-up with
clients.

As we go forward with our review of the Commercial Service’s export successes, we will
continue to review CMS entries for sufficient and timely supporting documentation
demonstrating the CS service provided to the client and the results reported.

C.     Services to repeat clients may limit assistance available to new clients

We reviewed the lists of clients that generated export successes for the Chicago USEAC
Network for fiscal years 2001 and 2002, and for the period October 1, 2002 to August 21, 2003.
We found that some trade specialists and spoke directors reported multiple export successes for
the same clients year after year. For example, for fiscal year 2003 (as of August 21, 2003), 69
percent of one trade specialist’s export successes were generated by clients for whom the trade
specialist also reported export successes in fiscal years 2001 and 2002.



                                                 13
U.S. Department of Commerce                                                   Final Report IPE-16136
Office of Inspector General                                                            February 2004

We understand that trade specialists are expected to cultivate client relationships over time and
assist existing exporters to expand into new markets, and that there is no limit on the number of
export successes from each client. We are concerned, however, that if trade specialists are
focusing on repeat clients that can generate export successes, they will not be available to assist
new clients who require assistance but might not generate immediate successes. Because we
identified this issue late in our review, we were unable to determine if it is a pervasive problem.
We nevertheless wanted to bring our concern to management’s attention and make clear that we
will be pursuing this issue in our subsequent reviews.




                                                14

U.S. Department of Commerce                                                    Final Report IPE-16136
Office of Inspector General                                                             February 2004

IV.       Financial and Administrative Operations Are Generally Good, with One Exception

Our review of the Chicago USEAC Network’s financial and administrative operations found
them to be sound for the most part: assets are accounted for and properly used, no cash
collections are made, credit card and check collections are entered into eMenu, and inventory,
purchase cards, and time and attendance records are properly managed. Much of the credit for
the network’s sound financial and administrative operations goes to the National Field Support
Team (NFST) personnel assigned to both the network and CS headquarters. The NFST member
for the Chicago USEAC Network is a long-term CS employee who appears to be knowledgeable,
organized, and responsive.

ODO established the NFST in February 2001, to shift administrative and financial operations
away from trade specialists, to allow them to devote more time to client and core-mission work.
One NFST Field Support Specialist (FSS) is assigned to each USEAC network to serve as the
primary contact for administrative processing for all employees within the network. NFST
prepares an administrative support agreement to be signed by each network director, the FSS
within the network, and the NFST director. This agreement spells out the following FSS
responsibilities: budget formulation and budget allocation (in concert with the USEAC network
director); budget reporting and reconciliation; human resources functions; hospitality requests;
gifts and bequests; management of procurement, travel, time and attendance, awards, trust funds,
and inventory; and liaison for leases and Memoranda of Understanding (MOU). The objectives
of implementing such NFST agreements are to enable ODO to

      •   place more resources into export promotion;
      •   establish administrative consistency across the country;
      •   improve budget formulation, allocation, and management;
      •   improve administrative customer service and accountability;
      •   establish a proactive stance to continually improve administrative services; and
      •   improve the morale of administrative staff.

Although she is assigned to the Chicago USEAC Network, the FSS’s office is located at the
Minneapolis USEAC. We visited that office on August 8, 2003, and met with the FSS. As part
of our survey, we asked the Chicago USEAC Network staff about their satisfaction with the FSS
and NFST’s services, and whether the establishment of the NFST has indeed allowed them to
focus more on client needs. Overwhelmingly, network staff stated that the FSS is helpful,
knowledgeable, and responsive. Further, they told us that since the NFST was created, the
amount of time they must spend on administrative matters has significantly decreased, allowing
them more time for core responsibilities.

NFST also conducts periodic internal control reviews (ICRs) of its operations, carried out by
NFST staff not affiliated with the network under review. A USEAC network director can, at any
time, request an ICR to cover some or all network administrative functions and/or the NFST
within the network. During July and August 2002, NFST performed an ICR of the Chicago
USEAC Network’s administrative operations for the period of October 1, 2001 to June 30, 2002.
No material problems were identified.



                                                  15
U.S. Department of Commerce                                                 Final Report IPE-16136
Office of Inspector General                                                          February 2004

Also, to its credit, ODO management has taken an initiative to reduce its lease costs in USEACs
nationwide where cost savings are possible. These cost savings can be achieved through either
downsizing current space or relocating to lower cost space. In Chicago, Commercial Service
entered into a 10-year lease for its current space. That lease expired in May 2003. The proposed
new lease for the current space would be a significant increase over the current cost. Therefore,
Commercial Service obtained a one-year extension from the General Services Administration
(GSA) for its current space, so that it could identify new less expensive space. The cost to
exercise this extension option was nearly $43,000. To meet ODO and GSA requirements, the
Chicago USEAC is currently working with GSA to downsize its space requirements and find less
expensive space that accommodates Ex-Im and SBA, so that the USEAC can remain a “one-stop
shop.” An NFST staff member is the liaison with GSA to assist in identifying less expensive
new space, or reducing lease costs at the current location.

Based on our review of the network’s financial and administrative operations, the network’s
satisfaction with the NFST services, and the fact that the ICR revealed no material problems, we
believe that the financial and administrative operations of the Chicago USEAC Network are
functioning effectively, with the following exception.

Commercial Service did not invoice and collect payments from co-located trade partners

As noted earlier, at the Chicago USEAC, Commercial Service is co-located with Ex-Im, SBA,
and a trade partner called Global Trade and Technology Network (GTN). GTN is a U.S. Agency
for International Development (USAID) program implemented through a cooperative agreement
with the International Executive Search Corporation (IESC), the principal contractor for the
GTN program. The GTN program helps U.S. companies to identify markets overseas and is
fully funded by USAID. By co-locating GTN with Commercial Service, it is hoped that the
needs of U.S. exporters will be more completely met.

An MOU establishing co-location as well as a joint project between Commercial Service and
GTN, has been in place for the past 3 years. The MOU specifies that IESC will assign a full-
time trade specialist to the Chicago USEAC to administer the GTN program, and pay
Commercial Service $2,910 per fiscal year toward the lease cost of the space. Despite this
requirement, Commercial Service had not sought—and the trade partner had not paid—these
funds for the last 2 fiscal years. The payment for fiscal year 2003 was due on October 1, 2003.

We met with GTN’s business development manager who explained that IESC has never received
an invoice for the lease charges and stated that without an invoice, they cannot pay Commercial
Service. Initially, when we brought this issue to the attention of CS management in headquarters
and within the Chicago USEAC Network, they were not aware that the MOU called for GTN to
make lease payments.

We also inquired about Commercial Service’s process for billing a non-federal trade partner.
According to the NFST director, this process is currently the responsibility of the FSS in each
network. However, when we spoke with the Chicago network’s FSS, she stated that although
she had a copy of the MOU, she was unaware that the trade partner owed any lease payments to
Commercial Service.



                                               16
U.S. Department of Commerce                                                Final Report IPE-16136
Office of Inspector General                                                         February 2004

For fiscal years 2001 and 2002, by not properly invoicing the payments stipulated in the MOU,
Commercial Service failed to collect $2,910 per fiscal year, or $5,820. Further, Commercial
Service failed to collect another $2,910 for fiscal year 2003. In total, for the Chicago USEAC
alone, Commercial Service failed to collect $8,730. During our inspection, we also learned that
GTN is co-located with Commercial Service in the Newport Beach and Houston USEACs, and
had not paid its portion of the lease costs in either of those USEACs. Commercial Service had
not invoiced the contractor for its portion of the lease costs in either office. To address our
concerns, NFST prepared and submitted an invoice totaling $16,088 to the GTN contractor for
its portion of the lease costs in Chicago, Houston, and Newport Beach. This amount was
comprised of lease payments due as far back as July 2000. On November 19, 2003, IESC paid
Commercial Service $16,088 for the aforementioned lease costs.

We are concerned about Commercial Service’s process for tracking, invoicing, and collecting
funds due from non-federal trade partners. Since the three USEACs with GTN as an on-site
partner—Chicago, Newport Beach, and Houston—are located in three different USEAC
networks, yet experienced the same problem, we question Commercial Service’s current process
of having each network’s FSS be responsible for tracking, invoicing, and processing these
receivables. Instead, Commercial Service should consider a centralized procedure for tracking
these funds to ensure that no further collections are missed and ensure that the Field Support
Specialists are adequately trained about their responsibilities to collect money owed by co
located partners. In light of Commercial Service’s initiative to reduce its lease costs where
possible, we believe that Commercial Service should address this issue promptly.

As we go forward with our review of other USEACs, we will continue to evaluate the issue of
funds due from co-located non-federal trade partners to ensure that Commercial Service has
collected all such money.

Lastly, SBA, another co-located partner in Chicago and 16 other export assistance centers, was
delinquent in paying its portion of the USEAC’s lease costs for fiscal year 2003. However, in
the case of SBA, CS management was well aware of the non-payment and consistently pursued
payment from SBA. On October 1, 2003, SBA provided to Commercial Service a signed
reimbursable agreement for $359,146, SBA’s share of the lease costs for fiscal year 2003. On
October 2, 2003, the Deputy Assistant Secretary for Domestic Operations announced that SBA
had paid its fiscal year 2003 lease obligation.

Recommendations. CS management should ensure collection of lease costs from the GTN
contractor for its share of the USEAC space in Chicago, Newport Beach, and Houston, totaling
$16,088. Further, Commercial Service should ensure that its procedures for tracking and
invoicing fees due from non-federal trade partners are adequate and understood by its employees
so that no future collections are missed.



In response to our draft report, Commercial Service stated that the GTN contractor paid $16,088
to the Commercial Service for its share of the lease costs. We are pleased that Commercial
Service received these funds. This action meets the intent of our recommendation number two.



                                               17

U.S. Department of Commerce                                                 Final Report IPE-16136
Office of Inspector General                                                          February 2004

Commercial Service also stated that it is working with the Interior Department’s National
Business Center (NBC), which handles ITA’s payments and accounting functions, to implement
a mechanism that will automatically invoice trade partners for costs specified in MOUs.
Commercial Service indicated that this invoicing system will be in place by the third quarter of
fiscal year 2004. We are pleased that Commercial Service is taking steps to address our
recommendation to improve the tracking and invoicing of fees due from non-federal trade
partners. However, until the new mechanism with NBC is in place, we request that the NFST
Director ensure that field support specialists in these networks understand and collect the
required lease costs from the GTN contractor.




                                               18

U.S. Department of Commerce                                                  Final Report IPE-16136

Office of Inspector General                                                           February 2004


                          SUMMARY OF RECOMMENDATIONS 


To strengthen the management and operations of the Chicago USEAC Network as well as all
domestic export assistance centers, our recommendations are that the Acting Assistant Secretary
and Acting Director General of the Commercial Service do the following:

       1. 	    Require that USEAC directors and ODO exercise greater diligence in their
               reporting and review of export successes to ensure compliance with CS guidance
               and the Operations Manual (page 10).

       2. 	    Ensure collection of lease costs from the GTN contractor for its share of the
               USEAC space in Chicago, Newport Beach, and Houston, totaling $16,088
               (page 15).

       3. 	    Ensure that CS’ procedures for tracking and invoicing fees due from non-federal
               trade partners are adequate and understood by the appropriate CS employees so
               that no future collections are missed (page 15).

       4. 	    See Appendix C at page 25 for two additional recommendations (For Official Use
               Only).




                                               19

U.S. Department of Commerce                                           Final Report IPE-16136
Office of Inspector General                                                    February 2004

                                      APPENDICES

                                                                     APPENDIX A

                                     List of Acronyms


CMS                   Client Management System
CS                    Commercial Service
DEC                   District Export Council
DOJ                   Department of Justice
Ex-Im                 Export-Import Bank of the United States
FSS                   Field Support Specialist
FY                    Fiscal Year
GSA                   General Services Administration
GTN                   Global Trade & Technology Network
ICR                   Internal Control Review
IDEC                  Illinois District Export Council
IESC                  International Executive Service Corps
ITA                   International Trade Administration
ITO                   Illinois Trade Office
MIATCO                Mid-America International Agri-Trade Council
MOU                   Memorandum of Understanding
NBC                   National Business Center
NFST                  National Field Support Team
ODO                   Office of Domestic Operations
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
OSY                   Office of Security
SBA                   Small Business Administration
USAID                 U.S. Agency for International Development
USEAC                 U.S. Export Assistance Center




                                             20

U.S. Department of Commerce         Final Report IPE-16136

Office of Inspector General                  February 2004





                              22

U.S. Department of Commerce         Final Report IPE-16136

Office of Inspector General                  February 2004





                              23

Pursuant to the Inspector General Act of 1978, as amended, and the Omnibus Trade and
Competitiveness Act of 1988, the Commerce OIG periodically evaluates the operations of
the Commercial Service. Under these authorities and in accordance with the Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency,
we conducted an inspection of the Chicago U.S. Export Assistance Center Network.

Inspections are reviews the OIG undertakes to provide agency managers with timely
information about operations. One of the main goals of an inspection is to encourage
effective, economical, and efficient operations. Inspections are also conducted to identify
or prevent fraud, waste, and abuse in federal programs. By asking questions, identifying
problems, and suggesting solutions, the OIG helps managers determine how best to
quickly address issues identified during the inspection. Inspections may also highlight
effective programs or operations, particularly if their success may be useful or adaptable
for agency managers or program operations elsewhere.

Major contributors to this report were Kristen Johnson and Christine Shafik, Office of
Inspections and Program Evaluations.
U.S. DEPARTMENT OF COMMERCE
      Office of Inspector General 

          Room 7898C, HCHB 

14th Street & Constitution Avenue, NW 

        Washington, DC 20230


          Internet Web site: 


          www.oig.doc.gov

